Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   Portable Imaging Services: 


     Nursing Home Perspectives




                   JUNl3 GIBBS BROWN
                   Inspector  General

                      NOVEMBER 1997
                       OEI-09-95-00091
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law
95-452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This statutory
mission is carried out through a nationwide program of audits, investigations, inspections,
sanctions, and fraud alerts. The Inspector General informs the Secretary of program and
management problems and recommends legislative, regulatory, and operational approaches
to correct them.




                       Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office 

of Inspector General. It conducts short-term management and program evaluations (called 

inspections) that focus on issues of concern to the Department, the Congress, and the 

public. The inspection reports provide findings and recommendations on the efficiency, 

vulnerability, and effectiveness of departmental programs. 


OEI’s San Francisco Regional Office prepared this report under the direction of 

Kaye D. Kidwell, Regional Inspector General, and Paul A. Gottlober, Deputy Regional 

Inspector General. Principal OEI staff included: 


REGION IX                                          HEADQUARTERS

Brad Rollin, Project Leader                        Stuart Wright, Program Specialist
Robert Gibbons, Project Leader 

Kathy Dezotte 

Don Loeb 

Thomas Purvis 

Joseph Corso, Consultant 


To obtain a copy of this report, call the San Francisco Regional Office at 415-437-7900.
Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




   Portable Imaging Services: 


     Nursing Home Perspectives




                    JUNE GIBBS BROWN
                    Inspector General

                      NOVEMBER 1997
                       OEI-09-95-00091
                EXECUTIVE                                  SUMMARY

PURPOSE

This inspection determined when, how, and why nursing homes use portable imaging
services for their patients.

BACKGROUND

Portable Imaging

Nursing homes* provide directly or arrange for ancillary services--such as x-rays--for
patients who require them. In some instances, firms known as portable x-ray suppliers
provide portable x-ray and electrocardiogram (EKG) services in nursing homes.** These
services may be billed either by skilled nursing facilities to the Part A fiscal intermediary
or by the portable supplier to the Part B carrier. “Direct billing ” occurs when the
portable supplier bills the carrier. ‘Billing under arrangement” occurs when, based on a
contractual agreement, a skilled nursing facility bills the fiscal intermediary and pays the
portable supplier for services rendered. Skilled nursing facilities may bill under
arrangement even for patients who are not in Part A-covered stays.

When a fiscal intermediary processes the claim, reimbursement is based on a
predetermined interim payment which is finalized after a skilled nursing facility submits
its annual cost report. When a carrier processes the claim, reimbursement is based on a
combination of a reasonable charge determination and the national fee schedule.

In a companion report, entitled “Portable Imaging Services: A Costly Option”
(OEI-09-9500090), we found that portable services cost much more than non-portable
services and that Medicare pays too much when services are billed under arrangement.
As a result, we conducted interviews with nursing homes that provide portable services to
determine (1) why they use portable services and (2) why they bill under arrangement.
Another companion report, “Imaging Services for Nursing Home Patients: Medical
Necessity” (OEI-09-95-00092), assesses the medical necessity and quality of care.

Methodology

We conducted the interviews with a sample of 93 nursing homes that had provided a
portable chest x-ray for the patients sampled in our studies on costs, medical necessity,


     * For purposes of this inspection, nursing homes refers to skilled nursing, Medicaid nursing, board and
care, assisted living, and retirement facilities collectively. Where appropriate, we distinguish between
skilled nursing facilities and these other facilities.

    **Other options for nursing homes include transporting patients to hospital outpatient departments,
imaging centers, physician offices, or other facilities for x-rays or EKGs.


                                                      i
and quality of care of selected imaging procedures provided in different settings. We
asked the nursing homes how they provide services, how they bill for them, and their
rationale for these decisions. For skilled nursing facilities that bill under arrangement, we
obtained copies of their contracts with portable suppliers.

Operation Restore Trust

In May 1995, President Clinton announced Operation Restore Trust (ORT), a crackdown
on Medicare and Medicaid fraud, waste, and abuse in home health agencies, nursing
homes, and durable medical equipment suppliers. The ORT focuses on the five States-­
California, New York, Florida, Texas, and Illinois--that account for 40 percent of the
nation’s Medicare beneficiaries and program expenditures. This was an ORT inspection,
and this report is the second in a series on imaging services for nursing home patients
prepared by the Office of Inspector General.

FINDINGS

Portable services have become routine

Although Health Care Financing Administration (HCFA) regulations state that physicians
must justify the need for the use of a portable imaging supplier, portable services are
routinely provided to patients who reside in the sampled nursing homes. Approximately
one-third of the physician orders for chest x-rays that were provided by portable suppliers
indicated the reason why the x-ray was medically necessary but did not justify the need
for portable services. Furthermore, there was no indication in more than 50 percent of
the beneficiaries’ medical records that they would be unable to be transported outside of
the nursing home for medical services. In response to these findings, sampled nursing
homes stated that patients routinely receive portable services because (1) portable services
are less costly and more convenient for nursing homes and (2) they believe that portable
services are easier and more convenient for the patient.

Reasons for billing under arrangement are questionable

In our report on the costs of imaging services, we found that portable services billed
under arrangement cost as much as nine times more than the same services provided in
other settings. Respondents were unable to shed much light on the subject of billing under
arrangement, however. They stated that they were unable to answer questions about
billing under arrangement because they were too new to the skilled nursing facility, were
not involved in the decision, or did not occupy a decision-making position when the
facility negotiated the arrangement.

Patient records are not secure

Approximately 21 percent of nursing homes in our sample stated that portable x-ray
technicians have access to the medical file for the patient who is receiving a portable
service.


                                              ii
RECOMMENDATIONS

In the draft of this report, we recommended that HCFA:

  b	    eliminate the requirement that physicians just@ the use of portable services for
        nursing home patients and

  b     remind nursing homes that suppliers should not have access to patient records.

The HCFA concurred with our recommendation on patient records but did not concur with
our recommendation that it eliminate the requirement that physicians justify the use of
portable services. The HCFA believes that the current requirements should be maintained
but does not state that it will enforce them.

After we released our draft report, President Clinton signed into law the Balanced Budget
Act of 1997. Among the provisions in this law, it (1) establishes a prospective payment
system for beneficiaries in Part A-covered stays in skilled nursing facilities, to be phased
in over several years; (2) requires that all Part B items and services furnished to residents
of nursing homes (not covered under Part A) be billed by the nursing homes as part of a
consolidated billing system; (3) limits reimbursement for services paid under consolidated
billing to the Part B fee schedule; and (4) requires HCFA Common Procedure Coding
System codes for services provided to skilled nursing facility patients that are billed to
fiscal intermediaries.

Based on HCFA’s comments as well as the impact of the Balanced Budget Act, we have
amended our recommendations. We now recommend that HCFA:

   b    enforce the requirement that physicians justify the need for portable services,

        We estimate that HCFA could save as much as $63.7 million in 1 year and
        $37 1.9 million over 5 years by enforcing current requirements.

   b	   take into account the unnecessary payments that have been made for portable
        imaging services when it implements the prospective payment and Part B
        provisions of the Balanced Budget Act, seeking legislative authority if
        necessary, and

        Because HCFA has not enforced the physician justification requirement, services
        that were not justified were routinely paid.

   b    remind nursing homes that suppliers should not have access to patient records.

        Most nursing homes know that portable suppliers do not need access to patient
        records. Federal law dictates that nursing homes maintain strict control of these
        records.



                                               ...
                                              111
                        TABLE                           OF               CONTENTS

                                                                                                  PAGE 


EXECUTIVE SUMMARY 


INTRODUCTION                 .........................................                                1


FINDINGS       ..............................................                                         5


 �    Portable services have become routine                         ...........................       5


 �    Reasons for billing under arrangement are questionable .................                        6


 �    Patient records are not secure                  ................................                7


RECOMMENDATIONS                         .....................................                         8


APPENDICES

 A: Agency Comments                  .....................................                          A-l

 B: Confidence Intervals                ....................................                        B-l

 C: Estimated Savings                .....................................                          C-l
                               INTRODUCTION

PURPOSE

This inspection determined when, how, and why nursing homes use portable imaging
services for their patients.

BACKGROUND

Congress enacted Medicare in 1965 to provide health services to the elderly and disabled.
The program consists of two distinct parts. The first part is hospital insurance or Part A.
Part A covers services furnished by providers, i.e., hospitals, home health agencies, and
skilled nursing facilities. The second part, supplementary medical insurance or Part B,
covers a wide range of medical services and supplies. These include physician services,
outpatient hospital services, diagnostic laboratory tests, x-rays, ambulance services, and
durable medical equipment.

The Health Care Financing Administration (HCFA) administers Medicare and contracts
with private insurance companies to process and pay claims. Contractors that process Part
A claims are referred to as fiscal intermediaries. Contractors that process Part B claims
are called carriers.’ Some companies operate as both fiscal intermediaries and carriers.

The HCFA provides substantial guidance to fiscal intermediaries and carriers on applicable
laws, regulations, national polices, fee schedules, and other requirements. In some areas,
Federal law and HCFA allow the fiscal intermediaries and carriers considerable latitude in
determining both coverage and reimbursement.

Skilled nursing facilities and other extended care facilities

Medicare beneficiaries recuperating from an acute episode may be eligible for post-acute
skilled nursing services. The Medicare program provides coverage under Part A for
skilled nursing services but not for custodial care. The skilled nursing benefit includes:

   b    nursing care, 

   b    bed and board, 

   b    physical, occupational, or speech therapy, 

   b    medical social services, and 

   b    drugs, biologicals, supplies, appliances, and equipment for use in the facility. 


Medicare law stipulates that beneficiaries are eligible for skilled nursing benefits if they
are transferred to a skilled nursing facility after a minimum 3-day covered stay in an acute


     ’ An exception to this general rule is that fiscal intermediaries process Part B claims submitted by
hospitals (for inpatient and outpatient services), home health agencies, and nursing facilities.


                                                       1
hospital. The patient must require skilled nursing care, and a physician must order the
services. Part A covers skilled nursing services for up to 100 days per “spell of illness. ”

In addition to skilled nursing facilities, other facilities offer varying levels of care for
Medicare beneficiaries. These include Medicaid nursing, board and care, assisted living,
and retirement facilities. We have included all of these facilities in the scope of this
study and refer to them collectively as “nursing homes. ‘I We do, however, refer to
skilled nursing facilities specifically where findings pertain solely to these entities.

Portable x-ray and EKG services

Nursing homes provide directly or arrange for ancillary services--such as x-rays--for their
patients who require them. In some instances, firms known as portable x-ray suppliers
provide portable x-ray and electrocardiogram (EKG) services in nursing homes.2
Medicare’s portable x-ray benefit covers skeletal films of the arms, legs, pelvis, vertebral
column, and skull as well as chest and abdominal films that do not use contrast media.
Medicare also covers EKG services under the portable benefit, if they are medically
necessary and are performed by certified portable x-ray suppliers. All of these services
must be diagnostic rather than therapeutic. Portable x-ray suppliers must meet HCFA’s
conditions of participation to receive reimbursement for these services. These conditions
of participation require, among other things, that suppliers comply with State and local
laws, which may provide for the licensing and regulation of portable suppliers.

According to Medicare regulations, all portable x-ray services must be ordered by a
physician. The physician’s signed order must specify the reason why the x-ray is being
taken, the area of the body to be exposed, the number of x-rays to be taken, and the views
needed. The physician also must state why portable services are necessary.

Portable x-ray suppliers must maintain records for each patient. These records should
include the examination date, a description of the x-rays that were taken, the name of the
referring physician, the equipment operator, the physician to whom the x-rays were sent
for interpretation, and the date the x-rays were sent to that physician.

Billing for portable x-ray and EKG services

Portable x-ray and EKG services provided to nursing home patients may be billed either
by a skilled nursing facility to the Part A fiscal intermediary or by the portable supplier to
the Part B carrier. Skilled nursing facilities have the option to do either. When the
portable supplier bills the carrier, this is called ‘direct billing. ” When the skilled nursing
facility bills the fiscal intermediary and pays the portable supplier for the services
provided, this is called “billing under arrangement. ‘I Skilled nursing facilities may bill




    2 Other options for nursing facilities include transporting patients to hospital outpatient departments,
imaging centers, physician offices, or other facilities for x-rays or EKGs.
under arrangement even for patients who are not in Part A-covered stays. In these cases,
the skilled nursing facility submits an outpatient claim to the fiscal intermediary.

When the claim is processed by the fiscal intermediary, reimbursement is based on a
predetermined interim payment which is finalized when the skilled nursing facility submits
its annual cost report to its fiscal intermediary. When the claim is processed by the
carrier, reimbursement is based on a combination of a reasonable charge determination
and the national fee schedule.

These different billing methods can result in vastly different reimbursement rates and costs
to the Medicare program and beneficiaries, particularly when one compares reimbursement
made by the fiscal intermediary to that made by the carrier. A companion report, entitled
“Portable Imaging Services: A Costly Option” (OEI-09-9500090), contains a full
description of these billing methods.

Recent work on ancillary services for nursing home patients

A 1996 General Accounting Office report entitled “Fraud and Abuse: Providers Target
Medicare Patients in Nursing Facilities” (GAO/HEHS-96-18) warned that

       . . .a population with extensive health care needs grouped together at a single
       location offers unscrupulous providers the opportunity for volume billing, and
       Medicare often does not look for warning of egregious overutilization or rapid
       increases in billing.

Operation Restore Trust

In May 1995, President Clinton and Health and Human Services Secretary Donna Shalala
announced the kickoff of Operation Restore Trust (ORT), a new health care anti-fraud
initiative. The ORT is a crackdown on Medicare and Medicaid fraud, waste, and abuse in
home health agencies, nursing homes, and durable medical equipment suppliers. It
focuses on the five States--California, New York, Florida, Texas, and Illinois--that
account for 40 percent of the nation’s Medicare beneficiaries and program expenditures.

The ORT includes Federal and State agencies in collaboration with private sector entities
and beneficiaries. The Federal agencies involved in this effort include the Office of
Inspector General (OIG), HCFA, and the Administration on Aging. The OIG has
undertaken a number of national program inspections aimed at identifying and eliminating
systemic weaknesses that allow fraud, waste, and abuse to occur in the areas of home
health, nursing homes, and durable medical equipment. This inspection was conducted as
part of ORT.

METHODOLOGY

In the companion report, “Portable Imaging Services: A Costly Option, ” we found that
portable services cost much more than non-portable services and that Medicare pays too


                                              3
much when services are billed under arrangement. As a result, we conducted interviews
with nursing homes who provide portable services to determine (1) why they use portable
services and (2) if and why they bill under arrangement.

From a 1 percent simple random sample of the Common Working File, we extracted data
on all beneficiaries who were in a nursing homes or who received a portable imaging
service at any time during calendar year (CY) 1994. We then extracted claims data on all
imaging services provided to these beneficiaries during CY 1994.

We identified these nursing home residents through several indicators in the claims data.
These indicators included place of service, hospital discharge destination, skilled nursing
claims, and HCFA Common Procedure Coding System (HCPCS) codes that are likely to
correspond to a nursing home resident (such as transportation of portable x-ray
equipment). Based on a pre-test of this approach, we estimate that our database included
approximately 93 percent of all imaging services provided to nursing home residents.

From this newly created database, we selected a stratified random sample of 729 imaging
services that were provided while the beneficiaries were nursing home residents. The
strata are illustrated below:


     r                              Stratum                                1 Sample size 11

                                  Billed as part of 1 ORT States           1     ::      (
                                  Part-A nursing SbY NonsORT States
         Chest x-rays (HCPCS =
                                                      I                    I             II
         71010 through 71035)                             ORT States            134
                                  All other billing                                      II
                                  arrangements            Non-ORT States         60

                                 _ .                      ORT States            143
         EKGs (numerous HCPCS codes )
                                                          Non-ORT States         65

         Computerized axial tomography and magnetic       ORT States            167
         resonance imaging (numerous HCPCS codes)         Non-ORT States         75

When there was no skilled nursing facility claim overlapping the date of imaging service
in our sample, we attempted to verify that the beneficiary was a nursing home resident by
contacting providers and nursing homes.

We conducted interviews with the 93 nursing homes that we verified had provided a
portable chest x-ray for the patients in our sample. We asked the nursing homes how they
provide services, how they bill for them, and their rationale for these decisions. For
skilled nursing facilities that bill under arrangement, we obtained copies of their contracts
with portable suppliers. We also collected medical records for all beneficiaries in our
sample for our report “Imaging Services for Nursing Home Patients: Medical Necessity”
(OEI-09-95-00092).


                                                4

                                 FINDINGS 


Portable services have become routine

Although HCFA’s regulations state that physicians must justify the need for the use of a
portable imaging supplier, portable services are routinely provided to patients who reside
in the sampled nursing homes. For our review of medical necessity, we collected medical
records for all of the patients in our sample. In order to assess compliance with HCFA’s
regulations on use of portable services, we reviewed each patient’s record to determine
whether a clear justification for portable services was stated.

Approximately one-third of the physician orders for chest x-rays that were provided by
portable suppliers indicated the reason why the x-ray was medically necessary but did not
justify the need for portable services. Furthermore, there was no indication in more than
50 percent of the beneficiaries’ medical records that they would be unable to be
transported outside of the nursing home for medical services.

In response to these findings, we asked sampled nursing homes why their patients
routinely receive portable services. They cited two reasons, the first of which has nothing
to do with the patient’s condition:

   w   Portable services are less costly and more convenient for nursing homes

       When asked why their nursing homes routinely used portable services, respondents
       mentioned the increased cost to their nursing home of using non-portable services
       far more frequently than they mentioned the benefits to their patients.
       Transporting patients for services that otherwise could be provided by a portable
       supplier and paid fully by Medicare causes nursing homes to incur additional costs.
       These include (1) the cost of sending an aide with the patient and (2) the cost of
       transporting the patient, which is not covered by Medicare if it consists of a
       wheelchair van or other non-emergency transportation. On the other hand,
       respondents noted that beneficiaries routinely travel to other medical appointments.
       More than 88 percent of nursing homes in our sample acknowledged that
       beneficiaries take wheelchair vans to other appointments, and approximately
       38 percent noted that family members sometimes take patients to medical
       appointments.

       While sampled nursing homes save themselves money by using portable services,
       they do not consider the cost to beneficiaries, Medicare, and third party payers
       when selecting a portable supplier. Less than 8 percent of nursing homes solicit
       bids, negotiate, or otherwise consider the cost-effectiveness when selecting their
       portable supplier. Those that solicit bids tend to be public facilities that are
       required to do so in order to meet State or local laws. Nursing homes use other
       criteria to select portable suppliers. Timeliness and responsiveness are the primary



                                             5

       reasons why nursing homes use their portable suppliers. Nursing homes also
       consider the supplier’s reputation, equipment, and reliability.

       Lack of competition among portable x-ray suppliers is a factor. Only 26 percent
       of the nursing homes in our sample reported considering other portable imaging
       suppliers when they decided to use their current supplier. In addition, about half
       of the nursing homes stated that no other portable suppliers solicit their business.
       For the half that do receive solicitations, almost all of them noted that the
       suppliers’ marketing efforts were ineffective. At the same time, the number of
       consolidations and buyouts of portable suppliers is significant. We requested
       medical records from portable suppliers for all beneficiaries in our sample who
       received portable services. We encountered numerous instances where the supplier
       who provided the service in 1994 had been bought out by a larger corporation.
       The market is now dominated by national chains.

  b	   Sampled nursing homes believe that portable services are easier and more
       convenient for the patient

       Respondents stated that transporting patients for imaging services creates a 

       hardship. Patients may have to endure long waits in hospital outpatient 

       departments where emergency services are given priority over non-emergency 

       imaging procedures. 


       A patient’s ability to ambulate has no bearing on how the services are provided. 

       In sampled nursing homes, physicians know that if they order a service that can be 

       portable, it will be portable. In fact, no nursing homes in our sample have criteria 

       that would determine when a patient should be transported for a routine or 

       otherwise non-emergency chest x-ray. 


Reasons for billing under arrangement        are questionable

In our report on the costs of imaging services, we found that portable services billed
under arrangement cost as much as nine times more than the same services provided in
other settings. Respondents were unable to shed much light on the subject of billing under
arrangement, however. They stated that they were unable to answer questions about
billing under arrangement because they were too new to their skilled nursing facility, were
not involved in the decision, or did not occupy a decision-making position when the
skilled nursing facility negotiated the arrangement.

Approximately 14 percent of respondents from skilled nursing facilities that bill under
arrangement acknowledged that they do so to increase Medicare revenue. Other reasons
for billing under arrangement included that (1) it was the policy of the skilled nursing
facility or its corporate entity to provide all ancillary services under arrangement or
(2) the facility thought that Medicare required it to bill under arrangement.




                                             6

Most respondents (72 percent) do not know whether they would continue billing under
arrangement if the fee schedule were applied. This is primarily because they are not
acquainted with the fee schedule.

Patient records are not secure

Approximately 21 percent of nursing homes in our sample stated that portable x-ray
technicians have access to the medical file for the patient who is receiving a portable
service, In all other nursing homes, respondents stated that they provide the technician
with a specific order and that the patient’s file is kept under strict control of the facility’s
personnel.




                                                7

                    RECOMMENDATIONS


                                     Legislative Update

      Afler we released our dra$!report?PresidentClintonsigned into law the Balanced
      Budget Act of X997, Among the provisionsin this law, it:

        * 	 establishesa prospectivepaymentsystemfor beneficiariesin Part A-covered
            staysin skillednursingfacilities, to be phased in over severalyears;

        w 	 requires thatull Part B itemsand servicesfurnished to residentsof nursing
            homes (notcovered under Part A/ be billed by the nursing homes as part of a
            consolidatedbilling system;

        * 	 limitsreimbursementforservicespaid under consolidatedbilling to the
            Purt B fee schedule; and

        * 	 requires HCPCS codesforservicesprovided to skillednursingfacility
            patientsthat are billed tofiscal intermediaries.



In the draft of this report, we recommended that HCFA:

  b	    eliminatethe requirementthatphysiciansjustifythe use of portable servicesfor
        nursing homepatientsand

  b     remind nursing homes thatsuppliersshouldnot have access to patient records.


AGENCY COMMENTS AND REVISED RECOMMENDATIONS

The HCFA concurred with our recommendation on patient records but did not concur with
our recommendation that it eliminate the requirement that physicians justify the use of
portable services. The HCFA believes that the current requirements should be maintained
but does not state that it will enforce them. The full text of HCFA’s comments appears in
appendix A.

Based on HCFA’s comments as well as the impact of the Balanced Budget Act, we have
amended our recommendations. We now recommend that HCFA:




                                            8

b    enforce the requirement that physicians justify the need for portable services,

     We estimate that HCFA could save as much as $63.7 million in 1 year and 

     $371.9 million over 5 years by enforcing current requirements. 

     Appendix C describes how we estimated the cost savings. 


b	   take into account the unnecessary payments that have been made for portable
     imaging services when it implements the prospective payment and Part B
     provisions of the Balanced Budget Act, seeking legislative authority if
     necessary, and

     Because HCFA has not enforced the physician justification requirement, services
     that were not justified were routinely paid. In implementing the Balanced Budget
     Act, HCFA needs to take these unnecessary payments into account and reduce
     prospective payment and Part B ancillary rates accordingly. This recommendation
     should be considered in tandem with a recommendation in our report “Portable
     Imaging Services: A Costly Option.” That report recommends that, in
     implementing the Balanced Budget Act, HCFA should take into account the
     inflated charges for (1) services billed under arrangement (including payments for
     services that were non-covered) and (2) transportation charges that were excessive
     or prorated incorrectly.

b    remind nursing homes that suppliers should not have access to patient records.

     Most nursing homes know that portable suppliers do not need access to patient
     records. Federal law dictates that nursing homes maintain strict control of these
     records.




                                           9

                      APPENDIX                             A

                           AGENCY COMMENTS

                   Health Care Financing Administration




      DEPARTMENT    OF HEALTH    a HUMAN   SERVICES                 Health Care Financing   Administration




                                                                    The Administrator
                                                                    Washin&n.    D.C.   202Of




                                                                                AUG 4                        "
                                                                                                             l
              JUL 241997
DATE:

TO:          June Gibbs Bmwn
             Inspector General

FROM:        Bruce C. Vladeck !
             Administrator G \

SUBJECT: Oftice of Inspector General (OIG) Dratl Reports:“Portable Imaging
         Services:A Costly Option” (OEI-O9-95-00090),and “Portable Imaging
         Services:Nursing Facility Perspectives,”(OEI-O9-95-00091)


We reviewed tbe above-referencedreports identifying a number of problems with how
nursing facilities provide and bill for imaging servicesfor their patients.

Our detailed comments on the recommendationsare attachedfor your consideration.
Thank you for the opporhmityto review end commenton these reports.




                                           A-l
            Comments of the Health Care Financirm Administration IHCFA) 

                  gn Offke of lnsuector General (OIG1 Draft Reuorts: 

        “Portable Imaaitm Services: A Costlv Oution” (OEI-09-95-000901. and 

     “Portable ha&n Services: Nursine. Facilitv Persuectives.” (OEI-09-95-00091) 




General Comments

The Inspector General should be aware of legislation proposed by the President in his
fiscal year (FY) 1998 budget that would mitigate problems with ancillary billing that are
experienced under current law.

First, the President proposed to implement a prospective payment system (PPS) for
skilled nursing facilities (SNFs) effective July 1,1998. Prospective payments would
cover all SNF service costs, including routine service costs, ancillary costs (whether
provided under Part A or Part B of Medicare), and capital-related costs. A PPS would
eliminate cost-based discrepancies between “direct” billing and ‘under arrangement’
billing.

Second, the President’s consolidated billing proposal is designed to address the current
law’s lack of restraints on aucillary billing. Under the proposal, SNFs would be required
to bill Medicare for all services (except the services of physicians, certified muse
midwives, psychologists, hospice care, and nurse anesthetists). This proposal would
prohibit payment to any entity other than the SNF for services or supplies furnished to
Medicare-covered SNF patients

Finally, as recommended by OIG, the President’s FY 1998 budget legislation would
require SNFs to include HCFA common procedure coding system (HCPCS) codes on
their bii.    ---

OIG Draft Reuort - OEI-O9-9540090 - Portable Imaninu Services: A Costlv Option

OIG Recommendation

HCFA should instruct fiscal intermediaries (FIs) to never pay more than the fee schedule
amount for portable imaging services billed under arrangement.




                                          A-2 

                                                                                     2

HCFA Resuonse

We concur. However, we note it will take a considerable amount of administrative work
to implement this policy. (For example, it is currently impossible to impose this
requirement because SNFs use reveuue codes rather than HCPCS codes wbeu billing for
these services. It is impossible to compare services usiug these codes. It will take time to
make the changes necessary to require SNFs to use HCPCS codes.) HCFA already
instructed the FIs, that in applying the prudent buyer principle, they should compare the
price paid by SNFs for portable x-ray services with the amount paid when portable x-ray
services are billed by the supplier to the carrier.

OIG Recommendation

HCFA should require FI edits and HCPCS codes on all claims to discontinue payments
for non-covered services.

HCFA Resuonse

We concur with the intent of the recommendation. HCFA is currently pursuing
legislation that will change SNF payment methodology and make this action unnecessary.
We believe implementation of consolidated billing and an amendment to the current
statute is a broader approach to resolving issues surrouuding non-covered services and
excessive costs associated with SNFs big       for portable imaging services. In the
interim, HCFA explored use of HCPCS codes. However, this would require a major
change to the Medicare Uniform Institutional Provider Billing Form (UB-92) and costly
claims processing systems changes. Therefore, it is not cost effective over the longer
term.          -_..

OIG Recommendation

HCFA should require FIs to disallow any nursing facility overhead associated with
portable imaging services.

HCFA Resuonse

We do not concur. Portable x-ray costs incurred by the SNF under arrangement are
subject to the test of reasonableness as required by regulations at 42 CFR 413.9, Costa        ’
Related to Patient Care, and Chapter 21, Costs Related to Patient Care, of the provider
Reimbursement Manual (PRM). As pointed out in PRM section 2103B, Prudent Buyer-
Application of Prudent Buyer Principle, intermediaries may employ various means for




                                          A-3 

detecting and investigating situations where costs appear to be excessive. Included may
be such techniques as comparing the prices paid by providers to the price paid by others.
HCFA instructed the FIs, that in applyiug the prudent buyer principle, they should
compare the price paid by SNFs for portable x-ray services with the amouut paid when
portable x-ray services are billed by the supplier to the carrier. After allowing any
reasonable amout of actual overhead that may be applied to the cost incurred by the SNF
for the technical component and transportation component of the portable x-ray charge
made by the.carrier to the SNF, that amount should be compared with the amount paid
when portable x-ray services are billed by tbe supplier to the carrier (excluding the
professional fee portion).

OIG Recommendation

HCFA should immediately convert transportation reimbursement rates to a national fee
schedule, rebundle equipment setup with transportation, and remind carriers that they
must prorate transportation charges when multiple patients are seen at the same facility.

HCFA Resuonse

We partially concur. We will soon publish a proposed role for the 1998 Medicare
physician fee schedule. Among the proposals will be one addressing au adjustment of
practice expense relative values assigned to codes payable under the physician fee
schedule. As a part of that proposal, we plan to include a national payment rate for the
portable x-ray transportation codes ROO70- one patient and RO075- multiple patients,
effective with the 1998 physician fee schedule.

We made a p~&y decision that it was appropriate to pay a setup fee with every portable
x-ray procedure fbmished because there was no question tbat Medicare had historically
paid higher amounts for the technical component of x-ray services furnished by portable
suppliers vis-a-vis procedures performed by stationary entities. The setup fee reflects the
historic national average difference between carrier payments for x-rays furnished by
portable suppliers v&a-vls payments made for the procedures furnished by other
facilities. We continue to believe these payments are appropriate. Further, it would be
inappropriate to bundle setup fees with transportation payments since carriers pay a
single transportation payment per trip, but would pay multiple setup fees when an
individual beneficiary receives several x-ray procedures during a session.




                                           A-4 

                                                                                      4

Separate codes, describing situations in which one patient is seen and those in which
multiple patients are seen, clearly indicate that carriers should have different payment
amounts. Further, a discussion of the required proration when multiple patients are seen
was included in a Medicare Carriers Manual revision published in June 1996, trausmittal
number 1546, citation section 15022.G.3.

OIG Draft Renort OEI-09-9500091- Portable Imaainu Services: Nursing Facilitv
Persnectives

OIG Recommendation

HCFA should eliminate the requirement that physicians justify the use of portable
x-ray services for nursing facility patients.

HCFA Resuonse

We do not concur. We believe the current requirement in 42 CFR 486.106(a) should be
maintained, even though it may not be enforced effectively at this time. We recently
proposed and adopted a new rule requiring that the physician who orders a diagnostic test
must be a physician who is responsible for some aspect of the beneficiary’s care. One of
the primary reasons we took tbis action was to give the carriers an additional tool to use
in determining whether diagnostic tests performed in musing facilities are medically
necessary. We believe any action taken the following year to relax the ordering
requirements for a category of diagnostic tests that is usually done in musing facilities
would be poorly timed. Further, we believe, since x-ray procedures furnished on a
portable basis are more expensive, more extensive justification of the necessity for the
procedure is re+mable. Fhmlly, since relaxing the ordering oriteria could not possibly
save the program any money, we can not see any benefit arising from making such a
change.

Furthermore, section 483.75(k) of The Reuuirements for Lonn-Term Care Facilities
requires a SNF to provide or obtain radiology and other diagnostic services to meet the
needs of its residents. In so doing, the facility must assist the resident in making
transportation arrangements to and &om the source of services, if the resident needs
assistance. As stated in your report, 88 percent of the facilities in your sample note that
beneficiaries routinely travel to medical appointments outside the facility by taking
wheelchair vans, and 38 percent of the facilities note tbat family members sometimes




                                           A-5 

                                                                                       5

take patients to medical appointments outside the facility. This would indicate the use of 

more costly portable x-ray services performed in the SNP may not always be reasonable 

and necessary in those instances where the use of available outside resources is feasible. 


There is no requirement that an aide be sent witb a resident when obtaining services 

outside the facility. We recognize in some instances an aide may be necessary to ensure 

the safety of the resident. In those cases, the SNF may charge the resident for this service. 

Furthermore, under Title 3, Part B, section 321(a) of the Older Americans Act, grants are 

provided to state tits on aging to provide supportive services, including transportation 

(i.e., wheelchair vans), that are utilized by all long-tetm care (LTC) facility residents in 

order to attend medical appointments outside the facility. These services are provided at 

no cost to the facility. Also, under the Medicaid program, nursing facilities (NFs) are 

reimbursed for transportation charges as part of the daily rate. 


OIG Recommendation 


HCFA should remind NFs that suppliers should not have access to patient records. 


HCFA Resuonse 


We concur. HCFA is preparing to release a program memorandum that addresses 

medical necessity and confidentiaIity of medical records for all services provided in LTC 

facilities. 




The term nejrrg facility utilized throughout tbis report is misleading. Current Federal 

regulations distinguish between two types of LTC facilities: an NF under the Medicaid 

program, and a SNP under the Medicare program. We suggest that the term “long-term 

care faciliv replace the words ‘hursing facility” throughout ibis report when referring to 

a generic mu&g home. If a policy or concern specifically relates to Medicare SNFs or 

Medicaid NFs, it should be so noted. 


The definition of SNF coverage under Part A that appears in the “Background” is too 

general. We suggest it be more specific. Section 1861(h) of the Social Security Act 

provides for coverage of extended care services furnished to an inpatient of a SNF. Such 

coverage includes: (1) nursing care provided by, or under the supervision of a registered  *

professional nurse; (2) bed and board in connection with the fmnishing of such musing 





                                           A-6 

                                                                                    6

care; (3) physical or occupational therapy or speech-lsnguage pathology services
furnished by the SNP or others under arrangements with them made by the facility; (4)
medical social services; (5) such drugs, biologicals, supplies, appliances, and equipment
furnished for use in the SNP, as are ordinarily furnished by such facility for care and
treatment of inpatients; (6) medical services provided by an intern or resident-in-training
of a hospital with which the facility has in effect a transfer agreement, under an approved
teaching program of such hospital, and other diagnostic, or therapeutic services provided
by a hospital with which the facility has such an agreement in effect; and (7) such other
services necessary to the health of the patients as are generally provided by SNPs.
Additionally, the definition of the SNP benefit .that appears in the “Background” is too
general. We suggest it be more specific. The SNP benefit is referred to as post-hospital
extended care services. It is designed to assist persons who have had a 3-day quahfying
hospital stay, and require skilled services on a daily basis to recuperate from an acute
episode. Coverage, if approved, is limited to a total of 100 days per benefit period. On
the 21st day the beneficiary becomes responsible for a daily coinsurance amount equal to
one-eighth of the inpatient hospital deductible, as prescribed by law.

A statement is made on page 3 of the “Introduction” that “Nursing facilities may bill
under arraugement even for patients who are not in Part A-covered stays. ln these cases,
the musing facility submits an outpatient claim to the fiscal iutermediary.” Although the
first sentence is technically correct, the second sentence is incorrect and needs
clarification. We suggest the following language: “Payment may be made for a limited
range of services mder Part B when furnished by a participating SNP to an inpatient of
the SNP, if payment cannot be made uuder Part A, e.g., the beneficiary exhausted his
allowed days of inpatient SNP coverage under Part A in his current spell of ilhtess. In
these cases, the SNP submits a claim to the PIs for those inpatient services rendered.”
             --.




                                          A-7 

                                APPENDIX                      B

              CONFIDENCE INTERVALS FOR SELECTED STATISTICS

The following table shows the point estimates and 95 percent confidence intervals for
(1) two statistics that appear on page 6 of the report and (2) one statistic that appears in
appendix C (bottom of page C-l).


  Statistic

                                           Point estimate                     95 percent
                                                                         confidence interval

  Of 1994 portable chest x-rays for nursing home residents, percent in which the medical record
  did not contain a physician order for the portable service
                                            31.8 percent              19.9 percent - 43.6 percent

  Of 1994 portable chest x-rays for nursing home residents, percent in which the medical record
  did not indicate that the patient was not ambulatory
                                            53.7 percent             4 1.1 percent - 66.3 percent

  Amount Medicare paid during 1994 for transportation and setup for nursing home residents’
  portable chest x-rays, in which the medical records did not indicate that the patient was not
  ambulatory

                                            $3 1.4 million          $19.9 million to $42.9 million




                                                B-l
                                APPENDIX                          C

  CALCULATION OF ESTIMATED SAVINGS TO THE MEDICARE PROGRAM


The calculation of estimated savings involved (1) estimating the amount that Medicare
would have saved during 1994 if HCFA had disallowed the transportation and setup
charges for portable x-ray services when the patient could have been transported and
(2) projecting these savings to a 5-year period from 1997 through 2001.

1994 portable x-rays for paiients who could have been transported

We calculated this estimate through a four-step process, as described below. We cannot
calculate a confidence interval for this estimate, because only chest x-rays were part of
our sample.

1. 	   Using a 1 percent sample of 1994 part B claims, we calculated the amounts that
       Medicare paid to suppliers for portable x-ray transportation and setup claims that
       were billed directly to the Medicare carrier, as shown in the table below.


                                                         1994 amount paid for
          Service (billed directly to carrier)
                                                          transport and setup

          Portable x-ray service that included               $50,504,123
          a chest x-ray
          Portable x-ray service that did not                $31,367,549
          include a chest x-ray

          Cannot determine (no x-ray                          $1,777,298
          technical component billed)

          TOTAL                                              $83,648,970

As illustrated below, the ratio of (1) payments for services that did not include chest
x-rays to (2) payments for services that included chest x-rays is 0.621.



IICalculation: Ratio of services that did not
  include chest x-rays to services that included
11chest x-ravs                                       I
                                                             $31,367,549 + $50,504,123 = 0.621



2. 	    From our review of medical necessity, we estimated that Medicare paid
        $31.43 million during 1994 for portable chest x-ray transportation and setup, in
        which the medical records did not indicate that the patient was not ambulatory.



                                                   C-l
3. 	       As illustrated below, we multiplied the estimate from step 2 by the ratio from
           step 1.

                              $31,431,239 * 0.621 = $19.52 million


4. 	       By adding the amounts from steps 2 and 3, we estimated that, during 1994,
           Medicare paid $50.95 million for portable x-ray transportation and setup, in which
           the medical records did not indicate that the patient was not ambulatory.


Estimated savings for 1997 through 2001

We used a three-step process to estimate how much Medicare will save from 1997 through
2001 if HCFA disallows transportation and setup charges when a patient could have been
transported.

1. 	       Using 1 percent sample data for each year from 1992 through 1995, we calculated
           the total amount that Medicare paid for portable x-ray transportation and the
           associated setup charges. Next, we calculated the annual percent changes for each
           year. We selected the smallest of these annual percent changes (a 7.74 percent
           increase) to use in the step 3 calculations.

2. 	       As calculated in step 4 above, Medicare would have saved $50.95 million during
           1994 by disallowing transportation and setup charges when a patient could have
           been transported.

3. 	       Starting with the 1994 estimated savings from step 2, we calculated the savings in
           each subsequent year by increasing the previous year’s savings by 7.74 percent.
           The results of these calculations are displayed on the following page.

For example, the table below illustrates how we calculated the 1997 savings.


   Starting point:     1994 savings                                $50,952,832 

   Smallest percent increase in payments for 

                                                                   7.74 percent 

   x-ray transportation and setup, 1992 - 1995

       1995 savings calculation                       $50,952,832 * 1.0774 = $54,896,399 

       1996 savings calculation                       $54,896,399 * 1.0774 = $59,145,184 

       1997 savings calculation                      I $59,145,184 * 1.0774 = $63,722,810 


The precise number usedfor these calculationswas 1.07739642383




                                               c-2
       STATISTICS FROM 1 PERCENT SAMPLE DATA




7
         Amount paid for directly billed
                                                   Percent change from
Year    portable x-ray transportation and
                                                      previous year
                 associated setup

                    $66,100,078 
                      Not applicable
                    $77,639,918 
                         17.46%
                    $83,648,970 
                          7.74%

                    $90,378,681 
                          8.05%
         Data for 1996 were not available 
 at the time of this report.




               5-YEAR SAVINGS ESTIMATES


                   Estimated savings if HCFA disallows
       Year       transportation and setup charges when
                   a patient could have been transported

        1997                        $63,722,810
        1998                        $68,654,727
        1999                        $73,968,357
        2000                        $79,693,244
        2001                        $85,861,216

       TOTAL                     $371,900,354




                               c-3
